                             SOCIAL SECURITY
                                                                          Inspector General
                                     August 12, 2002


Mr. Hal Daub
Chairman
Social Security Advisory Board
400 Virginia Avenue, SW
Washington, D.C. 20024

Dear Mr. Daub:

At our meeting of May 17, 2002, you asked that we prepare an issue paper on the
potential use of “stored value cards” (SVC) in the Social Security Administration’s (SSA)
Representative Payment Program. Also in your July 25, 2002 testimony before
Congress, you expressed concern about SSA making benefit payments to third parties.
Specifically, you conveyed the concern that such payments are susceptible to abusive
practices if the Agency does not carefully select and monitor representative payees.
Furthermore, you noted the Agency would need to devote considerably more resources
to screening and monitoring representative payees, if vulnerable beneficiaries are to be
protected from misuse of benefits.

We agree that adequate oversight of representative payees is needed. In doing so,
SSA should take advantage of existing technology in such efforts. Our August 2002
report, Summary of Financial Related Audits of Representative Payees for the Social
Security Administration (enclosed), recommended that SSA pilot the use of SVC or
similar technology for representative payees. SSA disagrees with our recommendation,
stating the use of SVCs would be time-consuming and labor-intensive for both large
payee organizations and individuals serving multiple beneficiaries and for representative
payees serving only a small number of beneficiaries. However, we continue to believe
SSA should use SVCs or similar technology for representative payees.

Our August 2002 Issue Paper, Pilot Strategy for the Use of Stored Value Cards in the
Social Security Administration’s Representative Payment Program, is also enclosed. It
provides background information on SVCs, their use in other agencies, potential
benefits, and an overall strategy that could be used in developing a pilot for SSA’s use
of SVCs in its Representative Payment Program. The purpose of performing the pilot
would be to determine the feasibility, any limitations, necessary modifications, costs,
benefits, legal implications, etc., of SVCs. Given the problems our audits and
investigations continue to identify, as well as SSA’s inability to retrieve over 50 percent




           SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
Page 2 – Mr. Hal Daub

of Representative Payee Reports, we continue to believe SSA should pilot this
technology to effectively evaluate SVC’s usefulness in helping to address long-term and
systemic weaknesses in SSA’s Representative Payment Program.

Thank you for your interest in SSA’s Representative Payment Program. If you have any
questions concerning this matter, please call me or have your staff contact
Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.

                                               Sincerely,




                                               James G. Huse, Jr.

Enclosures (2)

cc:
Jo Anne B. Barnhart, Commissioner
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PILOT STRATEGY FOR THE USE OF
     STORED VALUE CARDS IN THE
 SOCIAL SECURITY ADMINISTRATION’S
 REPRESENTATIVE PAYMENT PROGRAM

    August 2002   A-13-02-22096




          ISSUE
          PAPER
Representative Payment Program
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees (Rep
Payee) to receive and manage these beneficiaries’ payments. A Rep Payee may be an
individual or an organization. SSA selects Rep Payees for Old-Age, Survivors and
Disability Insurance beneficiaries or Supplemental Security Income recipients when
representative payments would serve the individual’s interests.

Rep Payees’ duties include:

     ·    using benefits to meet the beneficiary’s current and foreseeable needs;

     ·    conserving and investing benefits not needed to meet the beneficiary’s current
          needs;

     ·    maintaining accounting records of how the benefits are received and used;

     ·    reporting events to SSA that may affect the beneficiary’s entitlement or benefit
          payment amount;

     ·    reporting any changes in circumstances that would affect their performance as
          a Rep Payee; and

     ·    providing SSA an annual Representative Payee Report (RPR) accounting for
          how benefits were spent and invested.

As of November 2001, there were about 5 million Rep Payees who managed the
benefits of about 7 million beneficiaries. The following chart reflects the types of Rep
Payees and the number of individuals they served.

                                                                Number                   Number of
                Type of Rep Payee                                  of                    Individuals
                                                               Rep Payees                  Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                           4,949,000                 6,160,000
 Organizational Payees: State Institutions,
 Local Governments and Others                                        44,150                  759,000
 Organizational Payees: Fee-for-Service                                 850                   81,000
 TOTAL                                                           4,994,000                 7,000,000




Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   1
Stored Value Cards and/or Similar Technology
Stored value cards (SVC) are prepaid spending cards that can be used where most
credit cards are accepted. Spending is limited to the amount of money transferred to
the card. The SVC looks similar to a credit card in that both have the credit card mark
and hologram. Merchants process SVCs and credit card authorizations in the same
manner. Also, SVCs can be used to make automated teller machine withdraws.

One of the key elements in the President’s Management and Performance Plan is
“electronic government” (e-Government). The Office of Management and Budget
established a task force to implement the President’s initiative and requested agencies
to identify areas where e-Government would be beneficial. We believe the use of SVCs
or similar technology is an e-Government opportunity that SSA should consider for its
Representative Payment Program. Below, we discuss three current uses of SVCs or
similar technologies.

       U.S. Military - The Army, Marines, and Air Force use SVCs to deliver payroll
payments to trainees. As of June 2002, the Department of the Treasury’s Financial
Management Service web site reported these payments involved over 100,000 cards
worth over $50 million in transactions. The use of SVCs has reduced operating costs
by 19 percent. In addition, the SVCs saved time by eliminating the need to cash
checks, money orders, and credit vouchers.

        Social Security Administration - SSA is using a technology similar to the SVC.
SSA participates in the Electronic Benefits Transfer (EBT) Program1 sponsored by the
Department of the Treasury. About 50,000 beneficiaries/recipients are voluntarily
participating in this Program. The EBT Program has reduced administrative costs by
eliminating costs associated with printing and mailing benefit checks.

       U.S. Department of Agriculture - The U.S. Department of Agriculture (USDA)
issues over 80 percent of its food stamp benefits using EBT. EBT creates an electronic
record of each food stamp transaction, making it less troublesome to identify and
document instances where food stamps are “trafficked,” or exchanged for cash, drugs
or other illegal goods. The use of EBT has made it easier for USDA to detect
large-scale trafficking, which is a type of program fraud. In March 2000, USDA reported
a 19 percent decline in food stamp trafficking due in part to EBT.




1
 The EBT Program, known as the Benefit Security Card (BSC), is part of a Governmentwide effort to
improve services to beneficiaries who do not have an account at a financial institution. Beneficiaries
using the BSC to access their benefits through automated teller machines and point-of-sale terminals.



Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   2
Known Problems with SSA’s Representative Payee Program

·   SSA does not effectively track Rep Payees who do not respond to, and complete,
    RPRs.

·   Rep Payees do not always maintain accurate records of benefit receipts and
    disbursements.

·   Rep Payees sometimes commingle beneficiary funds with business or personal
    funds.

·   Rep Payees do not always properly control cash disbursements.

·   Rep Payees do not always return conserved funds when beneficiaries die or there is
    a change of Rep Payee.

·   SSA cannot always locate and retrieve completed RPRs when needed.

Potential Benefits of SVCs to SSA’s Representative Payee Program
The use of SVCs would facilitate improved monitoring of Rep Payees spending of and
accounting for benefit payments. Some of the specific benefits of SVCs are discussed
below.

       Rep Payee Tracking of Expenses -The SVC would automatically keep an
electronic record of most purchases for the Rep Payee.

      Timely Identification of Rep Payee Spending - SSA could obtain spending
information directly from the financial institution on the type and amount of many of the
expenses the Rep Payee incurred. This information could be available electronically
and be reviewed at various intervals (weekly, monthly, and annually).

       Identification of Questionable Expenses - Create exception reports allowing SSA
to quickly identify instances of questionable expenses, unusual spending patterns, and
program ineligibility through excess conserved funds (see “Identification of Conserved
Funds”). Merchant blocking could be used to prevent Rep Payees from making
purchases with certain vendors.

        Identification of Conserved Funds - Tracking balances on SVCs will permit SSA
to quickly identify Supplemental Security Income program ineligibility when recipients’
balances go over $2,000. Also, when individuals change Rep Payees, the balance
could be electronically transferred to the new Rep Payee. SSA would not have to wait
for the former Rep Payee to return any balance(s) to SSA.

      Elimination of the Paper RPR - Use of the SVC may provide significant
administrative savings of costs for mailing and processing RPRs. Approximately


Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   3
7 million paper RPRs are mailed and processed annually at a cost of about $52 million.
In addition, Rep Payees would no longer need to complete the “paper” annual report,
thereby reducing the administrative burden on the Rep Payee.

Pilot Strategy
SSA should consider implementing an initiative to determine the feasibility, including
costs and benefits, of using the SVC or similar technology to monitor Rep Payees’
spending and accounting of benefit payments. Whether such technology has limited or
widespread potential use within SSA’s Representative Payment Program should also be
determined.

Before implementing the initiative, SSA should develop a strategy for determining
whether the initiative’s objective(s) was achieved. We encourage SSA to take this
proactive approach.

We suggest that the initiative take the form of three different pilot programs concurrently
conducted in different regions. Furthermore, each pilot should focus on a different type
of and/or location for Rep Payees. By doing so, SSA can include the steps it deems
appropriate in the pilot to facilitate the reporting and evaluation of SVC program
performance. SSA should consider obtaining performance measurement information
from participating Rep Payees to assist it in assessing program performance.

Since SSA classifies most Rep Payees as “individual” Rep Payees, two of the three
pilots should focus on this type of Rep Payee. One pilot could focus on individual Rep
Payees in urban areas, while the other pilot could focus on individual Rep Payees that
reside in suburban and rural areas. We suggest that SSA consider conducting these
pilots in the Atlanta, Chicago, or San Francisco regions because of the significant
number of beneficiaries and recipients in those regions.

The third pilot program centers on organizational Rep Payees, including fee-for-service
and non-fee-for-service, governmental and non-governmental, and high-volume2
individual Rep Payees. High-volume individual Rep Payees may face many challenges
similar to those experienced by organizational Rep Payees. SSA should consider
conducting its third pilot program in the Chicago, New York, or Philadelphia regions.

SSA should identify and document the roles and responsibilities of internal and external
entities needed to implement its pilot programs as well as the underlying costs of each.
The Agency should determine which of its components will be involved in managing and
operating the initiative. In addition, SSA may need to create and maintain certain
intergovernmental relationships to facilitate the implementation of effective and efficient
pilot programs. For example, the Department of the Treasury could provide information
and assistance regarding the use of the SVC or similar technology.


2
    Serving 20 or more beneficiaries.



Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   4
Also, SSA is faced with developing partnerships/contractual arrangements with financial
institutions to address known challenges to using SVC or similar technology by Rep
Payees. For example, financial institutions involved in the pilots will need to offer a
check-writing option for use when the SVC cannot be used to make purchases on the
beneficiary’s behalf. Financial institutions will also need to provide Rep Payees use of
automated teller machines for cash withdraws. In addition, SSA would need to work
with one or several financial institutions to minimize costs of the pilot programs and
estimate future costs.

Matters for Consideration During the Pilot
General Matters

·   SSA or Congress may need to provide incentives for Rep Payees to use SVCs.

·   SSA must determine whether to use a single SVC or multiple SVCs where a Rep
    Payee manages benefit payments for numerous beneficiaries.

·   SSA should address the use of automated reports to fulfill the legislative
    requirement.

·   The SVC will need a check-writing or other expenditure option for instances where
    SVCs are not accepted.

·   SSA may need to include a consent provision from the Rep Payee authorizing
    examination of the financial institution records.

·   Appropriate clause should be used in applicable Representative Payment Program
    documentation requiring the Rep Payee to certify that all funds are used for the
    beneficiary’s benefit.

·   Controls will need to be established for the SVC process to limit use to authorized
    individuals.

Operational Matters

·   Develop a strategy for addressing:

    ü Costs associated with mailing original cards, replacing lost cards, automated
      teller machine withdrawals, etc.
    ü Fraudulent use of lost cards.
    ü Cards for Rep Payees with numerous beneficiaries.
    ü Check-writing options.
    ü Merchant blocking for Rep Payees.



Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   5
    ü Development of an SVC “Rep Payee Report.”
    ü Development of exception reports to identify questionable expenses and track
      SVC balances.

·   Issue a “Request for Quote” for providing SSA SVC/EBT or similar services.
    Evaluate and select proposals.

·   Develop an information pamphlet about SVCs and request Rep Payee participation.

·   Identify Rep Payees to participate and enroll them with the financial institution.

·   Provide the selected Rep Payees training and education about SVCs.

·   Develop a Rep Payee satisfaction questionnaire on using the SVC.

Costs

·   Work with financial institutions to minimize the types of administrative costs to be
    borne by SSA.

·   Evaluation of the pilot should include a determination of the costs and benefits
    associated with implementing SVCs agencywide with the goal of having a positive
    return on investment.

Assumptions

·   Rep Payee participation in pilot programs would be voluntary. However, if the pilot
    is successful, SSA may want to make use of the SVC mandatory.

·   Pilot program would be conducted for 1 year, and participants in the pilot would
    continue until a final decision is made on implementing the use of SVCs.




Pilot Strategy for the Use of Stored Value Cards in the SSA’s Representative Payment Program (A-13-02-22096)   6
